IN THE
SUPREME COURT OF THE UNITED STATES
No. ____________

OCTOBER TERM, 2020
_________________________________

JOSEPH ATTAWAY II,
Petitioner,
- vs UNITED STATES OF AMERICA,
Respondent.
_________________________________

PETITION FOR WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE NINTH CIRCUIT
GARY PAUL BURCHAM
BURCHAM & ZUGMAN
402 West Broadway, Suite 1130
San Diego, CA 92101
Telephone: (619) 699-5930
Attorney for Petitioner

QUESTION PRESENTED FOR REVIEW
Whether Petitioner was denied his due process right to a
fair trial when the background testimony of multiple law
enforcement witnesses about their anti-gang designations
and assignments created the clear and inflammatory
inference that the instant case was related to street gangs?

- Prefix -

TABLE OF CONTENTS
Question Presented for Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Prefix
Table of Contents . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i
Table of Authorities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
Petition for Writ of Certiorari. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Jurisdiction and Citation of Opinion Below . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Constitutional Provision at Issue . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Statement of Facts and Case. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Argument . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
Appendix:
Exhibit “A” (Ninth Circuit Court of Appeals
Memorandum)
Exhibit “B” (Ninth Circuit order denying Petition for
Rehearing and Suggestion for Rehearing En Banc

i

TABLE OF AUTHORITIES
CASES
Kennedy v. Lockyer, 379 F.3d 1041 (9th Cir. 2004) . . . . . . . . . . . . . . . . . . . . . 11
United States v. Dillard, 884 F.3d 758 (7th Cir. 2018) . . . . . . . . . . . . . . . . . . . . 12
United States v. Hankey, 203 F.3d 1160 (9th Cir. 2000) . . . . . . . . . . . . . . . . .

11

United States v. Irvin, 87 F.3d 860 (7th Cir. 1996) . . . . . . . . . . . . . . . . . . . . . . 11
United States v. Lewis, 910 F.2d 1367 (7th Cir. 1990) . . . . . . . . . . . . . . . . . . . 11
United States v. Liranzo, 385 F.3d 66 (1st Cir. 2004) . . . . . . . . . . . . . . . 12,13,15
STATUTES
21 U.S.C. § 841(a)(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
21 U.S.C. § 846 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
28 U.S.C. § 1254 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

ii

No. ____________

OCTOBER TERM, 2020
_________________________________

JOSEPH ATTAWAY II,
Petitioner,
- vs UNITED STATES OF AMERICA,
Respondent
_________________________________

PETITION FOR WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE NINTH CIRCUIT

Petitioner respectfully prays that a writ of certiorari issue to review the
judgment of the United States Court of Appeals for the Ninth Circuit entered on May
17, 2021.

JURISDICTION AND CITATION OF OPINION BELOW
On May 17, 2021, the Ninth Circuit affirmed Petitioner’s conviction in
an unpublished Memorandum opinion, attached as Exhibit “A” to this petition. The
Ninth Circuit denied Petitioner’s petition for rehearing, and suggestion for rehearing
en banc, on June 30, 2021. [Ex. “B”]. This Court has jurisdiction to review the Ninth
Circuit's decision pursuant to 28 U.S.C. § 1254.
CONSTITUTIONAL PROVISION AT ISSUE
U.S. Constitution, Fifth Amendment:
No person shall be held to answer for a capital, or
otherwise infamous crime, unless on a presentment or
indictment of a Grand Jury, except in cases arising in the
land or naval forces, or in the Militia, when in actual
service in time of War or public danger; nor shall any
person be subject for the same offence to be twice put in
jeopardy of life or limb; nor shall be compelled in any
criminal case to be a witness against himself, nor be
deprived of life, liberty, or property, without due process of
law; nor shall private property be taken for public use,
without just compensation.

2

INTRODUCTION
Petitioner asks this Court to grant review in the instant case to decide a
question concerning the due process implications of the government using the
testimony of its law enforcement witnesses about their professional assignments to
create an inflammatory inference against a criminal defendant. Although the instant
case had nothing to do with gangs or Petitioner’s alleged gang affiliation, five
government witnesses specifically referred to gangs or gang violence when outlining
their professional designations or duties. This detailed testimony was unnecessary
to establish these witnesses’ capacities to investigate or testify since their
qualifications were never questioned at trial; however, this repeated testimony created
the inflammatory inference that Petitioner was a gang member, and that this
investigation and case were connected to the government’s efforts to combat street
gangs and gang violence. The Ninth Circuit’s conclusion that this testimony was
admissible as “relevant to the [officials’] background and qualifications,” [Ex. “A”
at 2], completely ignored the due process implications of this inflammatory evidence,
and Petitioner asks the Court to review this case in order to correct the Ninth Circuit’s
ruling and also to provide guidance to lower courts about the constitutional
implications of such background testimony.

3

STATEMENT OF FACTS AND CASE
In July 2015, the government initiated a drug trafficking investigation
in the area of Ceres, California after a confidential source (“CS”) who was working
with the FBI identified Kasper Kasperian as a drug trafficker who was selling pills.1
Kasperian was the owner of a used car sales lot in Ceres. Under the direction of FBI
Special Agent Brian Huberty, the government had the CS contact Kasperian to set up
a drug buy. In December 2014, the CS met with Kasperian and was provided with
a small sample of methamphetamine.
Subsequently, the government directed the CS to attempt to purchase two
pounds of methamphetamine from Kasperian. This purchase occurred in January
2015. The CS went to the auto lot and paid Kasperian $12,000 for two pounds of
methamphetamine. The CS wore a recording device during the transaction, and
numerous law enforcement agents provided surveillance of the area. Prior to the
arrival of the CS, Petitioner and co-defendant Hormozi walked away from
Kasperian’s business to a nearly restaurant.

After Kasperian sold the

methamphetamine to the CS, Petitioner and Hormozi returned to Kasperian’s business
on foot, and then drove away in Petitioner’s vehicle.

These facts are taken from the pre-sentence investigation report and the
reporter’s transcript of trial. [RT 215-445].
1

4

Another methamphetamine transaction occurred in April 2015. This
transaction was not recorded, but Special Agent Huberty was able to monitor the
event through an open phone line. On this occasion, the CS again purchased two
pounds of methamphetamine from Kasperian. Prior to the transaction, government
agents saw Petitioner and Hormozi arrive at the car lot. They left after Hormozi met
with Kasperian, and then both returned soon after the CS purchased the drugs from
Kasperian. In July 2015, the government obtained a wiretap on Hormozi’s telephone
and the interception lasted until early September.
In October 2015, the government obtained a four-count indictment
charging drug crimes. [ER 76-79].2 Count one charged Kasperian, Hormozi, and
Petitioner with conspiring to distribute and to possess with the intent to distribute a
controlled substance, (21 U.S.C. §§ 841(a)(1), 846), count two charged all three
individuals with distribution of methamphetamine on January 16, 2015, and count
three charged all three individuals with distribution of methamphetamine on April 2,
2015 (21 U.S.C. § 841(a)(1)). Id. Count four charged Hormozi and Kasperian only
with attempting to distribute oxycodone. Id. Kasperian pled guilty prior to trial and
became a cooperating witness for the government.

“ER” refers to Appellant’s Excerpts of Record filed in the Ninth Circuit
Court of Appeals.
2

5

Petitioner and Hormozi stood trial in October 2019. Relevant to this
petition, the government, through the testimony of five different law enforcement
witnesses, presented the recurring theme that this case involved street gangs. When
Special Agent Huberty was asked about his employment, he responded:
A. I’m employed with the Federal Bureau of Investigation.
I'm assigned to the Sacramento Division, and I’m assigned
to the Stockton resident agency. We have responsibility
over San Joaquin and Stanislaus County and outlying areas
in the Central Valley.
Q. How long have you worked for the FBI?
A. Almost 16 years.
Q. Where did you work before being assigned to the
Modesto area?
A. I was assigned to the New York office on the Joint
Terrorism Task Force from 2004 to 2008.
Q. As part of that task force, did you conduct surveillance
operations?
A. Yes.
Q. And is that a regular part of your job, is doing
surveillance as a special agent?
A. Yes.
Q. When you transitioned to the Sacramento RA, did you
take on a different role?

6

A. I did. I was appointed the coordinator for the
Central Valley Gang Impact Task Force, which is an
FBI Safe Streets Task Force. We have responsibility for
investigating gang, drug, violent crime, and other -- any
crime related to what may be connected to gang activity
in Stanislaus County.
[ER 2] (emphasis added).
CHP officer Walton described his employment as follows:
Q. In 2015, 2016, were you assigned to work with the FBI?
A. Yes, I was.
Q. What was the nature of that assignment?
A. I was assigned as a task force officer for four years with
FBI Safe Streets Task Force.
Q. What was that four-year time period?
A. It was June 2014 to June 2018.
Q. And what was the purpose of your assignment with this
task force?
A. My purpose of this assignment was to assist with the
FBI in investigating gangs in our geographical area, to
disrupt and dismantle gang violence.
Q. Now, you've previously testified that -- your position
with CHP as a patrol officer. As a task force officer, did
you have duties in addition to patrol?
A. Yes.

7

Q. What would those job duties be?
A. In addition to patrol during that time period, I
worked very closely with the FBI in investigating
crimes related to gangs and drug trafficking.
[ER 3] (emphasis added).
Merced Police Department Officer Bowen said this about his position
at the time of the offense:
Q. Officer, where do you work?
A. I work for City of Merced, Merced Police Department.
Q. How long have you been there?
A. Almost 13 years.
Q. Okay. What’s your current position?
A. I’m currently assigned to the Merced area Gang
Narcotic Enforcement Team, which is a county-wide
task force.
Q. Did you have the same assignment in May 2015?
A. I -- no.
Q. What were you doing at that time?
A. At that time, I was with my department’s Gang
Violence Suppression Unit, “GVSU” for short.
Q. What where your job responsibilities with that
particular assignment?
8

A. We’re a street-level proactive enforcement team. So
we pretty much patrol the city, follow up on tips. We
make a lot of traffic stops. We assist detectives, other
agencies -Q. Okay.
A. -- for activity.
[ER 4] (emphasis added).
FBI Special Agent Jackson provided this background:
Q. Are you employed as a special agent with the FBI?
A. Yes, ma’am.
Q. How long have you been so employed?
A. Over 20 years.
Q. And what sort of jobs/job assignments have you had in
that 20-year period?
A. A majority of my time was working gang/drugs
investigations. I also served in various management roles
in the FBI along with surveillance, white-collar, civil
rights, a myriad of different investigative roles in the
Bureau.
[ER 5] (emphasis added).
Detective Pinnegar of the Merced Police Department described his
position during the relevant time period as follows:
Q. Where are you employed, sir?
9

A. I am a detective with the City of Merced Police
Department.
Q. How long have you been a detective?
A. Approximately two years.
Q. What did you do before that?
A. I worked in the gang unit. I worked patrol.
[ER 6] (emphasis added).
The jury convicted Petitioner of all charged counts. The district court
imposed a sentence of 204 months in custody as to each count, to run concurrently,
and five years of supervised release as to each count, also to run concurrently. [ER
80].
Among other issues presented in his direct appeal, Petitioner argued that
reversal was required due to the repeated testimony from the government’s law
enforcement witnesses where they specifically described their anti-gang designations
at the time of this case. The panel found no problem with this testimony, writing that
the district court properly admitted “the testimony of law enforcement officials
regarding their gang-related assignments as relevant to their background and
qualifications.” [Mem. at 2]. The Ninth Circuit denied Petitioner’s petition for
rehearing and suggestion for rehearing en banc without further comment.
10

ARGUMENT
PETITIONER’S DUE PROCESS RIGHTS WERE VIOLATED BY THE
GOVERNMENT’S REPEATED PRESENTATION OF LAW
ENFORCEMENT WITNESS BACKGROUND TESTIMONY WHICH
UNMISTAKABLY LINKED PETITIONER, AND THE CASE, TO STREET
GANGS
Testimony regarding gang membership “creates a risk that the jury will
equate gang membership with the charged crimes.” United States v. Hankey, 203
F.3d 1160, 1173 (9th Cir. 2000). In the Ninth Circuit, its “cases make it clear that
evidence relating to gang involvement will almost always be prejudicial and will
constitute reversible error.” Kennedy v. Lockyer, 379 F.3d 1041, 1055 (9th Cir.
2004). “We have [] long recognized the substantial risk of unfair prejudice attached
to gang affiliation evidence, noting such evidence ‘is likely to be damaging to a
defendant in the eyes of the jury’ and that gangs suffer from ‘poor public relations.’”).
United States v. Irvin, 87 F.3d 860, 864 (7th Cir. 1996) (quoting United States v.
Lewis, 910 F.2d 1367, 1372 (7th Cir. 1990)).
Petitioner requests that the Court grant review in this case to decide
whether Petitioner’s right to a fair trial was violated by the government’s presentation
of law enforcement witness background testimony which unambiguously tied him,
and the case, to street gangs. While the introduction of gang evidence in this context
is a question of first impression in the Court, lower courts have noted the danger
11

presented by such background testimony.
In United States v. Dillard, 884 F.3d 758, 765-67 (7th Cir. 2018), the
Seventh Circuit addressed “scattered references” of gangs which occurred during
trial, most of which came from law enforcement officers describing their assignments
or their units. Id. at 761. Defendant objected, and the district court advised the
government to “be aware and ... caution whatever other witnesses they are going to
have to stay away from the terminology.” Id. at 762. Although the Seventh Circuit
declined to reverse because it found that no direct evidence of gang affiliation had
been admitted, it noted that the district court properly instructed the prosecutor to
inform future witnesses to avoid the terminology, and also wrote that “hindsight
counsels that it might have been better to have placed this restriction on the
Government prior to the presentation of its case.” Id. at 766.
In United States v. Liranzo, 385 F.3d 66, 70-71 (1st Cir. 2004), the
district court denied a motion in limine to exclude the gang designations of the law
enforcement witnesses because their assignments were relevant to respond to
defendant’s defense attacking the police practices and procedures used in the case.
Id. at 71. In its opening statement, however, the prosecutor told the jury that “this
case is nothing about gangs” and “the only importance of what [the officers] were
doing and where they were is for you to understand that this was not a [routine] car
12

stop.” In addition, the district court provided an instruction to the jurors advising
them that the “testimony about what their assignment was at the time of the incident
in question is given solely to provide to you background and context[,]” and that there
was no claim that the defendant had any connection to a gang. Id. The First Circuit
affirmed given the care with which the district court and government handled this
evidence.
The instant case had no safeguards of any sort to prevent the jury from
drawing damaging and unfair inferences from the witnesses’ background testimony.
Although this was a relatively short trial, five of the government’s law enforcement
witnesses raised the subject of street gangs during their testimony about their
designations. The comments were not just generic statements about job assignments,
they were specific comments in which the witnesses went out of their way to link
their involvement in this particular case to gangs. Special Agent Huberty told the jury
that his task force has the “responsibility for investigating gang, drug, violent crime,
and other -- any crime related to what may be connected to gang activity in Stanislaus
County.” [ER 3]. CHP Officer Walton stated that the “purpose of this assignment
was to assist with the FBI in investigating gangs in our geographical area, to disrupt
and dismantle gang violence,” and that he “worked very closely with the FBI in
investigating crimes related to gangs and drug trafficking.” [ER 3]. Merced P.D.
13

Officer Bowen testified that at the time of the instant investigation, he was assigned
to the department’s “Gang Violence Suppression Unit, “GVSU” for short.” [ER 4].
The inference which these witnesses and others created with their testimony – that
this case involved street gangs – was clear and obvious. It was also incorrect - this
case had nothing to do with gangs.
The idea that the jury might not have drawn this inference ignores the
reality of what a layperson takes from a law enforcement officer’s designation or
assignment. For instance, if police execute a search warrant at a house and they are
all wearing jackets that say “Anti-Gang Task Force,” the neighbors surely will think
the investigation involves a street gang. If the officers at the house wear jackets with
“IRS” on the back, then the neighbors will think that the person has serious tax
problems. It is no different in a trial. When the five government witnesses made sure
to tell the jury that they were tasked with working exclusively on gang crimes at the
time of this investigation, the jurors surely believed that this case involved gangs.
This is an issue which warrants the attention of the Court because law
enforcement witness background testimony is present in virtually every criminal trial
that occurs. Without guidance from the Court on this issue, prosecutors remain free
to use a witness’ specific background and designation to create unfair and unduly
prejudicial inferences against a criminal defendant. The government certainly has the
14

right to demonstrate to the jury that its law enforcement witnesses are experienced
officers or agents who are qualified to conduct investigations and testify about them
at trial, but aside from the unusual case where a specific designation is necessary to
address a component of the case or rebut a defense to the charge, see Liranzo, 385
F.3d at 70-71 (designation necessary to explain stop), getting into the witnesses’
specific designations is unnecessary for the government to present its evidence
effectively. Here, Special Agent Huberty should have been limited to stating that he
was a 16-year special agent of the FBI who was assigned to the Modesto area at the
time of this offense. CHP Officer Walton should have said only that he had been
assigned to a task force to work with the FBI in investigating crimes. Officer Bowen
should have said only he was a 13-year veteran of the Merced PD who was working
on a county-wide task force at the time of this case. In each instance, the jury would
have been informed that the witness was an experienced and appropriately assigned
officer or agent. And at the same time, Petitioner would not have faced a jury which
unjustly believed that he was a gang member, and that the charges against him were
related to a street gang.

15

CONCLUSION
For the above reasons, Petitioner respectfully requests that the Court
grant the instant petition to review the decision of the Ninth Circuit Court of Appeals.
Respectfully submitted,

Dated: September 22, 2021

/s/ Gary P. Burcham
GARY PAUL BURCHAM
BURCHAM & ZUGMAN
402 West Broadway, Suite 1130
San Diego, CA 92101
Telephone: (619) 699-5930
Attorney for Petitioner

16

